Page 2 – Herb Kuhn

BACKGROUND

Medicare Coverage and Payment of Services for Nursing Home Residents
In general, Medicare Part A covers inpatient hospitalizations and skilled nursing care for
eligible beneficiaries, while Medicare Part B covers physician and outpatient services.
Services provided under Part A are subject to different payment rules than services
provided under Part B.

Medicare Part A. Medicare Part A covers skilled care in a skilled nursing facility for up
to 100 days for residents who meet certain conditions, such as a prior hospitalization.2
For residents receiving skilled care, Part A covers almost all of the services provided to
that resident, as well as room and board. When Medicare Part A is covering a resident’s
care, the resident is considered to be in a Medicare Part A covered stay.

Most services provided to residents who are in a Medicare Part A covered stay are
consolidated into a single bill, a process known as consolidated billing. The Balanced
Budget Act of 1997 (BBA) originally required consolidated billing for all nursing home
residents receiving Medicare services in a skilled nursing facility.3 The Medicare,
Medicaid and SCHIP Benefits Improvement and Protection Act of 2000 (BIPA)4 limited
the consolidated billing requirement to residents in a Part A covered stay. Consolidated
billing was intended to enhance oversight by making a single entity responsible for
coordinating services and submitting bills.

Medicare Part B. Medicare Part B covers many medical services provided to Medicare
beneficiaries, including those residing in nursing homes. These services include, but are
not limited to, diagnostic laboratory tests, x rays, hospital outpatient services, ambulance
services, rehabilitation services, the purchase and rental of durable medical equipment,
orthotic/prosthetic devices, and surgical dressings.

Most Part B services provided to nursing home residents who are not in a Part A covered
stay are not subject to consolidated billing requirements.5 Rather, each service provider
may submit a separate claim to Medicare for each service rendered. Medicare pays for
these Part B services using a fee schedule, which varies by locality.

Medicare Part B Payment Vulnerabilities for Nursing Home Residents
In the 1990s, OIG identified problems with Part B payments for services provided to
nursing home residents. OIG found that the nursing home environment provides a unique


2
  42 U.S.C. § 1395d(a)(2). 

3
  Pub. L. No. 105-33 § 4432. Exceptions to the consolidated billing requirement include physician services 

and certain drugs. 

4
  Pub. L. No. 106-554 § 313. 

5
  Pursuant to 42 U.S.C. §§ 1395u(b)(6)(E) and 1395yy(e)(2)(A)(ii), physical, occupational, or speech 

therapy services are an exception because these services are subject to consolidated billing requirements for 

all skilled nursing facility residents, including residents not in a Medicare Part A-covered stay. 

Page 3 – Herb Kuhn

opportunity for fraudulent or excessive billing due to the high volume of services and
supplies nursing home residents receive in conjunction with the fact that multiple
providers could submit bills to Medicare. For example, a 1994 OIG study found that
Medicare was paying for incontinence supplies for nursing home residents that were
never used.6 In addition, a 1996 OIG study found questionable physician/supplier billing
practices.7

The consolidated billing requirement, as modified by BIPA, became effective
January 1, 2001. The BIPA limited the consolidated billing requirement to Medicare
services for nursing home residents who are not in a Part A covered stay. To guard
against excessive or duplicative payments, Congress required OIG to monitor Medicare
Part B payments for skilled nursing facility residents not in a Part A covered stay.8

METHODOLOGY

Scope
This study describes Medicare Part B services and allowed payments for nursing home
residents not in a Medicare Part A covered stay during CY 2002, regardless of whether
the nursing home is a skilled nursing facility or a nursing facility. We chose to use
CY 2002 data because they represent the first full year of claims data received after
consolidated billing requirements became effective. Only fee-for-service Medicare
claims were included in the analysis. This study does not include any analysis of
Medicaid room and board payments. Further, this study does not determine whether
Medicare Part B services and allowed payments were appropriate.

Data Collection
No centralized data source provides information about Part B services received by
nursing home residents. To identify all CY 2002 nursing home residents and to extract
data for their services allowed under Part B, we matched information from the Long
Term Care Minimum Data Set (MDS), the Medicare Enrollment Database (EDB), and
National Claims History (NCH) files.

First, we used the MDS9 to identify nursing home residents in CY 2002. Using
information from the MDS assessment records, we created one “stay” record for each
resident identifying the dates he or she resided in the nursing home. Each stay record
contains a unique identifier. Second, using the unique identifier for each resident, we
matched the stay records from the MDS to the EDB10 to identify the Health Insurance


6
  OIG. “Marketing of Incontinence Supplies,” OEI-03-94-00770. December 1994. 

7
  OIG. “Part B Services in Nursing Homes: An Overview,” OEI-06-92-000865. March 1996. 

8
  Pub. L. No. 106-554 § 313 (d).

9
  The MDS contains assessment records that provide a variety of information about a resident, including 

demographic information and dates of stay. 

10
   Medicare’s EDB contains information on all individuals entitled to Medicare, including enrollment dates 

and the unique Health Insurance Claim Number assigned to each resident. 

Page 4 – Herb Kuhn

Claim Number (HICN) for each resident.11 Third, using all identified HICNs, we
extracted claims for Part B services for each stay record from the NCH files.12 Using the
dates on the stay record, only services that occurred while the beneficiary resided in a
nursing home were included in the analysis.

Data from the following files containing Part B claims were extracted from the NCH for
analysis: (1) the physician/supplier file, which contains claims for services such as office
visits, laboratory, and imaging; (2) the Durable Medical Equipment file, which contains
claims for services such as enteral nutrition, wheelchairs, and prosthetic devices; and (3)
the hospital outpatient file, which contains claims from hospital outpatient departments.

Finally, the Skilled Nursing Facility (SNF) NCH file13 was used to identify and exclude
from the analysis those nursing home residents who were in a Medicare Part A covered
stay. Information from the SNF NCH file was merged with the claims information for
nursing home residents to exclude claims for Part B services that occurred during a
Medicare Part A covered stay.

In total, we identified more than 124 million line items for Part B services provided to
1.8 million nursing home residents from over 16,000 nursing homes.

Data Analysis
This population of Medicare Part B claims data for nursing home residents were analyzed
to determine the total payments, the total number of nursing home residents receiving
services, the types of services they received, and the allowed payments and services per
resident per State.

Allowed payment refers to the amount Medicare authorized for reimbursement for the
service. The allowed payment (hereafter referred to as payment) includes both the
Medicare payment and any contribution from the nursing home resident in the form of
copayment or deductible. Part B services that were not allowed were excluded from the
analysis.

To describe the types of services provided to nursing home residents, we classified the
data into categories of service and calculated the total payment for each category. Our
classification of the data was based on the Berenson-Eggers Type of Service (BETOS)
system. The BETOS system classifies all Healthcare Common Procedure Coding System




11
   For some records, we lacked a common variable on which to match the stay record to the EDB, which

may cause a slight underreporting of claims for Part B services. 

12
   The NCH files contain billing and utilization information for Medicare beneficiaries. Each line item

contains the HICN, procedure codes, dates of services, and the allowed amount. The NCH claims used in

this analysis represent final action data in which all adjustments have been resolved. 

13
   The SNF NCH file contains information about demographics, diagnosis, length of stay, and provider. 

Page 5 – Herb Kuhn

(HCPCS) codes used by CMS into 1 of 106 categories. Each of the approximately
124 million line items contains a HCPCS code describing the service provided. Using
the HCPCS codes, we applied the BETOS coding system to the data. Then, to facilitate
analysis of this high volume of claims, we combined like BETOS categories.14 In total,
we created 34 categories of service. We then calculated the total payment for each
category of service. See Appendix A for a listing of the 34 categories of service.

As part of the analysis of total Part B payments per resident, we created a map of the
United States showing five categories of median payment per resident. The five
categories were derived using the Jenks natural breaks classification. The Jenks natural
breaks classification uses a statistical technique to determine the best arrangement of
values into classes.

The data were also analyzed by nursing home resident, both overall and by category of
service. This analysis by resident was done at the State level. For each State,15 we
calculated the total payments for Part B services for each resident. We also
disaggregated this overall total into payments by category of service. Finally, we
determined the State median payment per resident for each category of service and for all
Part B services.

Limitations
While this review identified Part B claims for the majority of nursing home residents, a
lack of common variables on which to identify the HICN for each resident may cause
underreporting of Part B services provided to nursing home residents.

Due to complications in the way services are billed, this review was not able to determine
the quantity of services provided. For some services, it is difficult to match the
components of the service to obtain a definitive count of services provided. For example,
imaging may be split into two components, a technical component and a professional
component, each provided by different providers. While the resident received a single
service, each provider may have legitimately billed a different date of service and service
code for its component, thus making it difficult to match the components.




14
   For example, the BETOS system has 17 categories of major procedures. We combined these into a
single category of major procedures.
15
   Claims for residents in all 50 States, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands
were included in this study. Hereafter, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands
are referred to as States.
Page 6 – Herb Kuhn

RESULTS

Medicare Allowed $5.3 Billion for Part B Services Provided to Nursing Home
Residents in CY 2002
Medicare allowed $5.3 billion for Part B services provided to 1.8 million nursing home
residents who were not in a Part A covered stay in CY 2002. The $5.3 billion represents
5 percent of the total amount that Medicare allowed for all Part B services during
CY 2002.

Ten categories of service accounted for 79 percent of payments for Part B services for
nursing home residents. The top 10 categories of service accounted for $4.1 billion in
Part B payments for nursing home residents during CY 2002. Table 1 shows the top
10 categories of service based on total payments. See Appendix B for a listing of
payments for all 34 categories of service.


  Table 1. Top 10 Categories of Service: Payments for Nursing Home Residents and
  Number of Nursing Home Residents Receiving Service
                                                   Percentage
                                                      of Part B
                                                     Payments
                                                                                                     Percentage of
                               Payments for        for Nursing       Number of Nursing              Nursing Home
                              Nursing Home               Home          Home Residents               Residents with
 Category of Service              Residents         Residents*        Receiving Service            Part B services*

 Minor procedure              $1,001,135,901               19%                    1,061,574                     60%

 Nursing home visit            $624,697,477                12%                    1,441,150                     82%

 Ambulance                     $516,677,629                10%                      697,491                     40%

 Lab test                      $393,179,098                  8%                   1,430,645                     81%

 Specialist                    $351,417,319                  7%                     922,557                     53%

 Enteral nutrition             $333,895,544                  6%                       80,175                     5%

 Dialysis                      $267,515,557                  5%                       40,950                     2%

 Durable medical equipment     $210,140,166                  4%                     381,923                     22%

 Standard imaging              $203,744,389                  4%                   1,098,806                     63%

 Hospital visit                $202,318,468                  4%                     616,830                     35%

   Total                      $4,104,721,548               79%

                                                          Source: OIG analysis of 2002 Medicare claims data, 2006.
                                      *Population is 1.8 million nursing home residents who received Part B services.
Page 7 – Herb Kuhn

As seen in Table 1, minor procedure, nursing home visit,16 and ambulance accounted for
41 percent of payments for Part B services. Medicare allowed more than $2.1 billion for
nursing home residents in CY 2002 for these services.

Payments Varied by State for Each of the Top 10 Categories
The median payments per resident varied by State within the top 10 categories of service.
Table 2 shows the range of State median payments per resident within each of the
categories of service. The national median payment per resident is included as a point of
reference.


 Table 2. Top 10 Categories of Service: Range of State Median Payments per Nursing
 Home Resident



                                       Lowest State Median
                                         per Nursing Home     Highest State Median per          National Median per
 Category of Service                              Resident     Nursing Home Resident         Nursing Home Resident

 Minor procedure                                      $64                          $588                          $269

 Nursing home visit                                   $29                          $544                          $329

 Ambulance                                           $158                          $634                          $429

 Lab test                                             $39                          $233                          $142

 Specialist                                           $98                          $199                          $152

 Enteral nutrition                                   $519                        $5,855                        $3,911

 Dialysis                                            $604                        $6,212                        $2,910

 Durable medical equipment                           $122                          $542                          $205

 Standard imaging                                     $24                          $191                          $119

 Hospital visit                                      $115                          $245                          $167

                                                               Source: OIG analysis of 2002 Medicare Claims data, 2006.




For example, as seen in Table 2, the median payment per resident for enteral nutrition
ranged from $519 in one State to $5,855 in another State. See Appendix C for a listing of
median payments per resident for each of the 10 categories by State.

In addition to varying by category, overall State median payments per resident varied as
well. The State median payments per resident for all Part B services ranged from $366 to

16
     A nursing home visit is a physician’s visit to a nursing home resident for evaluation and management.
Page 8 – Herb Kuhn

$2,349 across States. See Appendix D for a map of the United States showing the
median payments per resident.

Both overall and within categories, variation was broadly distributed among States. State
median payments per resident were not attributed to clustering of States at the high or
low end.

DISCUSSION

This analysis found variation in State median payments per resident among the top
10 categories of service. Variation across States may reflect differences in populations or
differences in care provided, or may be an indication of inappropriate services.
Following is a general framework for understanding variation that may help inform future
analysis to determine if potentially excessive or duplicative billing patterns exist for
particular services or in particular States or nursing homes.

Variation across States is the result of differences in the allowed amount, type, and
quantity of service billed. Within a particular service, some variation across States in
allowed reimbursement may be explained by geographic variation in the Medicare fee
schedule. For example, in 2002, Medicare allowed $38 for a nursing home visit in one
State compared to $50 in another.

Variation across States due to differences in the type and quantity of service billed may
reflect differences in the residents’ needs. For example, the health status of nursing home
residents may vary by State, requiring different services at different levels of intensity. In
addition, practice patterns of physicians may also vary by State, resulting in different
mixes of services provided.

In contrast, variation in the type and quantity of services billed across States may be due
to inappropriate billing practices. Some providers may bill for more intensive services
than were actually rendered. Instead of billing for cleaning a wound, which is reimbursed
at a rate of $26, some providers may inappropriately bill for repairing a wound, which is
reimbursed at a rate of $262. In addition, providers may bill for a higher quantity of
service than was actually provided or needed. As previously noted, past OIG studies
have identified suppliers’ billing for incontinence supplies for nursing home residents
that were never used.

As a baseline review, this analysis did not determine whether variation was due to
differences in care provided or due to inappropriate billing practices. Making such a
determination would require further, more in-depth review.
Page 9 – Herb Kuhn

If you have any questions about this memorandum report, please do not hesitate to
contact me, or one of your staff may contact Claire Barnard, Director, External Affairs, at
(202) 619-1665 or through e-mail [Claire.Barnard@oig.hhs.gov]. To facilitate
identification, please refer to memorandum report number OEI-05-06-00240 in all
correspondence.
Page 10 – Herb Kuhn

Appendix A


Table 3. Listing of Categories of Service

PROCEDURES
   Anesthesia
   Major procedure
   Eye
   Ambulatory
   Minor procedure
   Oncology
   Endoscopy
   Dialysis
EVALUATION AND MANAGEMENT
   Office visit
   Hospital visit
   Emergency room visit
   Home visit
   Nursing home visit
   Specialist
   Consultation
OTHER
   Ambulance
   Chiropractic
   Enteral and parenteral
   Chemotherapy
   Other drugs
   Hearing and speech
   Immunization/vaccination
   Other code
DURABLE MEDICAL EQUIPMENT
   Durable medical equipment
   Enteral nutrition
TESTS
   Lab test
   Other test
IMAGING
   Standard imaging
   Advanced imaging
   Echnography
   Other imaging
EXCEPTIONS/UNCLASSIFIED
   Other
   Local and undefined codes
   Blank
Page 11 – Herb Kuhn

Appendix B

Table 4. Payments for Medicare Part B Services for Nursing Home Residents, by Category of
Service

Category of Service                                             Payment              % of Total Payment
PROCEDURES
    Anesthesia                                                        $23,369,213                     0%
    Major procedure                                                  $129,266,897                     2%
    Eye                                                               $61,444,162                     1%
    Ambulatory                                                        $85,662,566                     2%
    Minor procedure                                                $1,001,135,901                    19%
    Oncology                                                          $21,648,308                     0%
    Endoscopy                                                         $42,031,117                     1%
    Dialysis                                                         $267,515,557                     5%
    TOTAL PROCEDURES                                               $1,632,073,720                    31%
EVALUATION AND MANAGEMENT
    Office visit                                                     $108,105,067                     2%
    Hospital visit                                                   $202,318,468                     4%
    Emergency room visit                                             $157,044,647                     3%
    Home visit                                                         $1,446,498                     0%
    Nursing home visit                                              $624,697,477                     12%
    Specialist                                                       $351,417,319                     7%
    Consultation                                                     $103,678,412                     2%
    TOTAL EVALUATION AND MANAGEMENT                                $1,548,707,889                    29%
OTHER
    Ambulance                                                        $516,677,629                    10%
    Chiropractic                                                       $1,353,210                     0%
    Enteral and parenteral                                                $28,049                     0%
    Chemotherapy                                                      $42,194,423                     1%
    Other drugs                                                       $84,053,248                     2%
    Hearing and speech                                                   $351,104                     0%
    Immunization/vaccination                                           $7,361,207                     0%
    Other Code                                                         $1,649,668                     0%
    TOTAL OTHER                                                      $653,668,538                    12%
DURABLE MEDICAL EQUIPMENT
    Durable medical equipment                                        $210,140,166                     4%
    Enteral nutrition                                                $333,895,544                     6%
    TOTAL DURABLE MEDICAL EQUIPMENT                                  $544,035,710                    10%
TESTS
    Lab test                                                         $393,179,098                     8%
    Other test                                                        $41,587,130                     1%
    TOTAL TESTS                                                      $434,766,228                     9%
IMAGING
    Standard imaging                                                 $203,744,389                     4%
    Advanced imaging                                                  $82,380,067                     2%
    Echnography                                                       $46,239,292                     1%
    Other imaging                                                     $12,064,703                     0%
    TOTAL IMAGING                                                    $344,428,451                     7%
EXCEPTIONS/UNCLASSIFIED
    Other                                                              $61,822,543                    1%
    Local and undefined codes                                          $33,243,458                    1%
    Blank                                                                     $185                    0%
    TOTAL EXCEPTIONS/UNCLASSIFIED                                      $95,066,186                    2%
  TOTAL ALLOWED PAYMENTS                                            $5,252,746,722                  100%
Figures are rounded to the nearest whole dollar.   Source: OIG analysis of 2002 Medicare claims data, 2006.
 Page 12 – Herb Kuhn

 Appendix C

Table 5. Minor Procedure: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State

  State                                            Total Payments            Median         Minimum          Maximum
  Alabama                                               $14,289,601              $247                $3          $29,605
  Alaska                                                   $210,126              $230               $10          $12,085
  Arizona                                                $5,212,257              $220                $4          $27,844
  Arkansas                                               $9,881,728              $206                $3          $21,810
  California                                            $58,613,762              $188                $0          $46,810
  Colorado                                               $9,480,498              $410                $2          $24,556
  Connecticut                                           $18,221,361              $423                $2          $25,969
  Delaware                                               $2,219,088              $221                $7          $23,553
  District of Columbia                                   $1,689,655              $214                $5          $20,491
  Florida                                               $71,794,437              $443                $1          $40,923
  Georgia                                               $18,031,994              $200                $4          $29,607
  Hawaii                                                   $906,667              $183                $4          $16,372
  Idaho                                                  $4,200,058              $494                $3          $15,955
  Illinois                                              $43,870,914              $216                $1          $35,949
  Indiana                                               $45,087,057              $438                $3          $36,657
  Iowa                                                  $12,853,619              $211                $1          $41,171
  Kansas                                                $13,412,467              $278                $3          $21,062
  Kentucky                                              $22,160,560              $343                $3          $42,449
  Louisiana                                             $31,299,523              $588                $0          $32,129
  Maine                                                  $2,272,122              $144                $1          $13,296
  Maryland                                              $13,851,116              $238                $1          $26,339
  Massachusetts                                         $22,900,198              $317                $4          $42,301
  Michigan                                              $32,606,707              $226                $3          $44,130
  Minnesota                                             $16,148,084              $315                $0          $26,742
  Mississippi                                           $19,914,321              $586                $3          $38,054
  Missouri                                              $29,317,415              $295                $3          $30,181
  Montana                                                $2,503,870              $206                $3          $22,385
  Nebraska                                               $6,540,657              $205                $3          $18,452
  Nevada                                                 $2,758,392              $225                $4          $57,037
  New Hampshire                                          $4,102,915              $289                $3          $18,600
  New Jersey                                            $29,187,995              $213                $4          $29,340
  New Mexico                                             $4,547,870              $298                $7          $27,060
  New York                                              $52,825,301              $154                $1          $55,420
  North Carolina                                        $27,876,713              $402                $2          $42,883
  North Dakota                                           $1,726,584              $186                $3          $28,225
  Ohio                                                  $80,913,775              $400                $2          $51,058
  Oklahoma                                              $13,304,256              $326                $0          $41,290
  Oregon                                                 $3,243,274              $283                $4          $19,371
  Pennsylvania                                          $66,940,750              $360                $1          $32,650
  Puerto Rico                                                $4,114               $76                $3             $973
  Rhode Island                                           $2,809,653              $293                $3          $20,960
  South Carolina                                         $9,566,187              $174                $3          $25,463
  South Dakota                                           $2,264,793              $214                $3          $19,279
  Tennessee                                             $24,053,409              $336                $3          $31,785
  Texas                                                 $69,495,527              $246                $3          $38,236
  Utah                                                   $4,017,774              $197                $4          $30,733
  Vermont                                                $1,630,081              $281                $4          $17,179
  Virgin Islands                                               $349               $64               $44             $178
  Virginia                                              $24,695,035              $446                $4          $32,877
  Washington                                            $11,317,664              $287                $2          $22,008
  West Virginia                                          $9,594,955              $277                $4          $34,529
  Wisconsin                                             $23,310,843              $277                $4          $42,895
  Wyoming                                                $1,457,833              $291                $7          $15,524
      National Total                                 $1,001,135,901              $269                $0          $57,037
Figures are rounded to the nearest whole dollar.                  Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 13 – Herb Kuhn

Table 6. Nursing Home Visit: Total Payments and Median, Minimum, and Maximum
Allowed Payment per Resident by State

 State                          Total Payments           Median        Minimum         Maximum
 Alabama                            $10,061,650             $350              $24          $3,819
 Alaska                                $128,651             $176              $31          $4,421
 Arizona                             $3,618,410             $269              $25          $8,063
 Arkansas                            $5,418,009             $256              $11          $4,800
 California                         $49,892,141             $434              $13         $19,252
 Colorado                            $4,657,855             $267              $25          $4,006
 Connecticut                        $10,716,836             $347              $24          $3,919
 Delaware                            $2,436,068             $398              $26          $5,572
 District of Columbia                $1,607,634             $493              $27          $3,578
 Florida                            $41,721,313             $409              $22         $10,351
 Georgia                            $13,184,038             $336               $3          $7,932
 Hawaii                                $843,620             $267              $26          $2,068
 Idaho                                 $957,066             $186              $24          $1,479
 Illinois                           $32,176,741             $317               $0          $7,075
 Indiana                            $14,511,187             $267              $24          $7,236
 Iowa                                $5,974,316             $201               $6          $2,801
 Kansas                              $4,798,000             $214              $24          $5,294
 Kentucky                            $9,627,772             $287              $24          $6,136
 Louisiana                           $8,814,582             $288              $15         $10,208
 Maine                               $2,480,054             $258              $24          $2,920
 Maryland                           $13,314,847             $431              $16         $11,581
 Massachusetts                      $18,046,711             $344              $24          $6,429
 Michigan                           $28,103,183             $458              $25          $7,666
 Minnesota                           $7,515,530             $217              $21          $2,085
 Mississippi                         $5,726,869             $313              $24          $2,478
 Missouri                           $12,971,539             $302              $20          $3,160
 Montana                             $1,427,464             $185              $24          $1,752
 Nebraska                            $3,149,886             $202              $22          $2,613
 Nevada                              $2,422,730             $436              $26          $7,149
 New Hampshire                       $3,256,688             $360              $25          $3,014
 New Jersey                         $30,287,187             $544              $16          $9,148
 New Mexico                          $2,052,929             $282              $24          $2,439
 New York                           $72,475,733             $470               $9         $14,307
 North Carolina                     $13,337,821             $279              $24          $4,631
 North Dakota                        $1,178,256             $178              $24          $2,618
 Ohio                               $36,936,806             $374              $20          $9,952
 Oklahoma                            $5,527,571             $221               $6          $3,448
 Oregon                              $1,482,544             $182              $24          $1,512
 Pennsylvania                       $42,593,532             $407              $25         $10,219
 Puerto Rico                            $23,035             $165              $25          $2,229
 Rhode Island                        $3,010,070             $320              $26          $2,190
 South Carolina                      $5,715,132             $311              $24          $5,855
 South Dakota                        $1,192,540             $182              $23          $1,761
 Tennessee                          $15,829,528             $335              $24          $4,437
 Texas                              $39,423,648             $332              $18         $15,398
 Utah                                $1,333,023             $230              $25          $1,869
 Vermont                             $1,006,009             $224              $25          $2,599
 Virgin Islands                             $29              $29              $29             $29
 Virginia                           $10,251,557             $288              $23          $4,404
 Washington                          $6,000,678             $233              $25          $3,632
 West Virginia                       $3,453,774             $324              $23          $2,605
 Wisconsin                          $11,476,576             $243              $20          $7,139
 Wyoming                               $548,112             $209              $24          $1,841
  National Total                   $624,697,477            $329               $0          $19,252
                                          Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 14 – Herb Kuhn

Table 7. Ambulance: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State


 State                         Total Payments            Median        Minimum         Maximum
 Alabama                             $8,696,449            $360                $3         $106,638
 Alaska                                $148,652            $501             $241           $22,017
 Arizona                             $2,665,308            $404                $5          $32,468
 Arkansas                            $7,746,224            $447                $3          $31,988
 California                         $43,053,857            $579                $8         $136,156
 Colorado                            $2,653,773            $410                $5          $15,585
 Connecticut                        $12,518,596            $559                $5         $124,801
 Delaware                            $1,572,516            $348              $66           $58,292
 District of Columbia                  $585,266            $331             $116           $44,377
 Florida                            $18,263,934            $331                $2          $57,037
 Georgia                            $11,759,207            $368                $3          $72,524
 Hawaii                                $310,015            $370                $7           $5,892
 Idaho                                 $425,080            $236                $3          $11,312
 Illinois                           $27,735,671            $382                $3          $72,404
 Indiana                            $13,391,496            $370                $3          $67,966
 Iowa                                $5,637,138            $374                $3          $12,032
 Kansas                              $3,726,200            $370                $4          $28,056
 Kentucky                           $11,314,984            $409                $4          $76,093
 Louisiana                          $18,089,430            $609                $4          $97,392
 Maine                               $2,621,534            $409              $11           $51,767
 Maryland                            $5,080,514            $336                $4          $59,160
 Massachusetts                      $27,580,300            $634                $8         $189,198
 Michigan                           $13,312,640            $424                $4         $101,834
 Minnesota                           $5,501,355            $447                $0          $33,230
 Mississippi                         $6,842,754            $438                $4          $79,272
 Missouri                           $10,670,715            $403                $2          $76,380
 Montana                               $637,843            $321                $4          $10,923
 Nebraska                            $1,456,325            $316                $4          $11,180
 Nevada                                $915,624            $448                $6           $6,318
 New Hampshire                       $2,123,114            $419              $14           $95,479
 New Jersey                         $22,426,923            $441                $1         $111,531
 New Mexico                          $1,000,684            $309                $3           $8,710
 New York                           $37,211,618            $503                $5          $91,001
 North Carolina                     $12,193,903            $282                $2          $88,516
 North Dakota                          $541,861            $336                $4           $5,526
 Ohio                               $34,727,521            $488                $3         $111,018
 Oklahoma                            $8,785,235            $458                $3          $79,881
 Oregon                              $2,007,356            $561                $5          $28,137
 Pennsylvania                       $30,054,618            $448                $4          $83,355
 Puerto Rico                             $4,001            $158              $19               $358
 Rhode Island                        $3,730,289            $451                $5          $84,137
 South Carolina                      $8,225,365            $354                $1          $78,625
 South Dakota                          $598,146            $266                $8           $8,628
 Tennessee                          $17,549,287            $392                $4         $101,424
 Texas                              $41,943,492            $439                $1          $93,535
 Utah                                  $966,708            $512             $104            $8,667
 Vermont                             $1,112,188            $379                $6          $88,677
 Virgin Islands                          $3,242            $260             $175               $521
 Virginia                            $7,187,234            $299                $4          $77,190
 Washington                          $6,767,722            $511                $5         $154,164
 West Virginia                       $5,010,659            $394                $3          $61,894
 Wisconsin                           $7,213,508            $390                $0          $68,931
 Wyoming                               $379,556            $334                $5           $5,419
     National Total                $516,677,629            $429                $0         $189,198
                                           Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 15 – Herb Kuhn

Table 8. Lab Test: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State


 State                         Total Payments            Median        Minimum         Maximum
 Alabama                             $8,288,668             $158               $3          $8,608
 Alaska                                $234,396             $233               $5          $6,832
 Arizona                             $2,084,639             $112               $3          $8,638
 Arkansas                            $5,036,405             $129               $2         $71,192
 California                         $31,763,032             $146               $1         $18,374
 Colorado                            $3,162,253             $120               $3          $5,408
 Connecticut                         $5,651,638             $125               $2         $25,252
 Delaware                            $1,067,150             $147               $3          $5,555
 District of Columbia                  $800,912             $142               $3         $10,093
 Florida                            $19,696,006             $143               $1          $8,106
 Georgia                            $10,256,592             $140               $2          $9,723
 Hawaii                                $580,992             $112               $2          $7,784
 Idaho                               $1,367,168             $117               $3          $6,528
 Illinois                           $17,997,382             $136               $1         $13,621
 Indiana                            $12,786,283             $152               $0         $20,996
 Iowa                                $7,166,439             $119               $3         $17,351
 Kansas                              $6,015,828             $143               $3         $11,343
 Kentucky                            $7,250,219             $148               $2         $12,082
 Louisiana                           $9,591,632             $166               $2          $8,636
 Maine                               $1,986,180             $124               $3          $5,730
 Maryland                            $6,857,644             $160               $0         $24,301
 Massachusetts                      $12,426,519             $172               $0         $12,545
 Michigan                           $10,368,336             $141               $2         $15,677
 Minnesota                           $7,652,744             $109               $3         $16,894
 Mississippi                         $4,420,163             $124               $1          $9,492
 Missouri                            $9,524,258             $139               $3         $14,092
 Montana                             $1,767,588             $126               $3         $16,797
 Nebraska                            $4,835,699             $143               $3          $6,800
 Nevada                                $850,093             $112               $3          $4,684
 New Hampshire                       $1,923,219             $136               $3          $5,717
 New Jersey                         $11,420,346             $147               $3         $11,462
 New Mexico                          $1,506,715             $123               $3          $5,004
 New York                           $25,233,048             $146               $0         $11,186
 North Carolina                      $9,992,029             $123               $0         $59,415
 North Dakota                        $1,314,370             $113               $3         $10,897
 Ohio                               $20,992,042             $150               $1         $12,826
 Oklahoma                            $5,414,963             $128               $0          $9,043
 Oregon                              $1,540,792              $98               $3         $14,833
 Pennsylvania                       $25,249,010             $166               $0         $23,386
 Puerto Rico                             $4,308              $49               $3            $597
 Rhode Island                        $2,321,505             $172               $3          $8,238
 South Carolina                      $3,638,933             $112               $2          $6,897
 South Dakota                        $1,783,580             $119               $3         $15,671
 Tennessee                           $9,666,120             $134               $0         $10,404
 Texas                              $29,678,067             $174               $1         $28,680
 Utah                                $1,591,459             $109               $0         $10,578
 Vermont                               $670,713              $98               $2          $5,785
 Virgin Islands                            $186              $39              $24             $84
 Virginia                            $8,240,545             $137               $1         $40,466
 Washington                          $5,557,119             $124               $3         $18,173
 West Virginia                       $2,861,683             $145               $3         $15,831
 Wisconsin                          $10,531,427             $127               $3         $34,809
 Wyoming                               $560,060             $114               $3          $4,396
  National Total                   $393,179,098            $142               $0          $71,192
                                          Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 16 – Herb Kuhn

Table 9. Specialist: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State

 State                          Total Payments           Median        Minimum         Maximum
 Alabama                             $3,654,461             $125               $3         $12,947
 Alaska                                 $48,121             $122              $10          $1,293
 Arizona                             $1,048,587             $124               $4         $14,178
 Arkansas                            $2,150,973             $121               $4         $10,799
 California                         $21,482,021             $161               $1         $45,767
 Colorado                            $6,022,634             $161               $4         $11,314
 Connecticut                         $6,518,005             $179               $5         $33,528
 Delaware                              $701,750             $143               $8          $5,022
 District of Columbia                  $573,346             $157              $11          $5,522
 Florida                            $21,344,341             $169               $5         $31,341
 Georgia                             $3,250,680             $106               $4         $17,370
 Hawaii                                $642,091             $138               $5         $10,385
 Idaho                                 $950,788             $123               $5          $5,546
 Illinois                           $25,564,539             $159               $0         $36,393
 Indiana                            $12,791,533             $173               $4         $29,356
 Iowa                                $4,080,268             $126               $4         $31,219
 Kansas                              $4,738,425             $152               $4         $29,682
 Kentucky                            $4,310,379             $132               $4         $34,534
 Louisiana                           $8,396,204             $131               $3         $38,119
 Maine                                 $872,593             $103               $4          $9,347
 Maryland                            $6,250,199             $175               $5         $25,736
 Massachusetts                      $11,981,622             $199               $5         $18,356
 Michigan                            $7,534,954             $145               $5         $10,940
 Minnesota                           $4,775,551             $133               $4         $15,170
 Mississippi                         $4,183,796             $168               $4          $9,492
 Missouri                            $5,819,599             $124               $3         $45,204
 Montana                               $599,587             $101               $4          $9,597
 Nebraska                            $2,058,366             $120               $4          $7,881
 Nevada                                $996,173             $170               $5         $11,133
 New Hampshire                       $1,860,141             $170               $5         $18,947
 New Jersey                         $12,324,609             $192               $5         $24,727
 New Mexico                          $2,201,247             $176               $7         $19,097
 New York                           $30,586,387             $181               $3         $21,372
 North Carolina                      $7,497,952             $134               $0         $14,331
 North Dakota                          $922,306             $129              $10          $2,761
 Ohio                               $19,936,372             $175               $4         $16,741
 Oklahoma                            $2,879,861             $106               $4         $21,552
 Oregon                                $760,945             $116               $4          $5,159
 Pennsylvania                       $20,504,160             $172               $1         $16,818
 Puerto Rico                             $4,437              $98               $5            $558
 Rhode Island                        $1,502,059             $174               $5          $4,338
 South Carolina                      $1,607,283             $112               $4          $9,804
 South Dakota                          $791,941             $121               $4          $4,860
 Tennessee                          $12,254,310             $189               $4         $14,894
 Texas                              $43,157,718             $195               $4         $53,738
 Utah                                $1,322,172             $130              $11         $31,061
 Vermont                               $354,580             $109               $2          $6,193
 Virginia                            $5,464,997             $140               $4         $14,185
 Washington                          $4,251,691             $123               $5         $11,339
 West Virginia                       $1,402,659             $129               $5         $13,440
 Wisconsin                           $5,988,574             $133               $0          $9,360
 Wyoming                               $499,330             $130               $4          $4,908
  National Total                   $351,417,319            $152               $0          $53,738
                                          Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 17 – Herb Kuhn

Table 10. Enteral Nutrition: Total Payments and Median, Minimum, and Maximum
Allowed Payment per Resident by State

 State                           Total Payments           Median        Minimum         Maximum
 Alabama                             $12,462,442            $4,627              $6         $16,224
 Alaska                                  $52,138            $5,855          $1,087          $8,536
 Arizona                                $886,864            $2,792             $11         $12,137
 Arkansas                             $5,017,544            $4,070             $24         $18,789
 California                          $35,690,268            $3,778              $5         $15,762
 Colorado                               $744,201            $3,176              $6         $13,973
 Connecticut                          $3,575,034            $3,640             $13         $12,728
 Delaware                             $1,156,020            $4,369             $40         $14,919
 District of Columbia                 $1,109,554            $3,974             $15         $12,506
 Florida                             $19,248,716            $3,594             $13         $22,124
 Georgia                             $10,441,416            $4,095             $16         $18,929
 Hawaii                               $1,297,346            $4,068             $39          $9,205
 Idaho                                  $238,273            $2,243             $51          $8,886
 Illinois                            $12,650,897            $3,138             $11         $16,765
 Indiana                              $6,676,856            $3,625             $12         $14,383
 Iowa                                 $1,348,648            $2,974             $22          $9,360
 Kansas                               $1,332,905            $3,392             $30         $11,641
 Kentucky                             $9,551,478            $4,419             $19         $17,945
 Louisiana                           $12,644,840            $3,798             $17         $16,953
 Maine                                  $450,704            $3,903             $69         $10,133
 Maryland                             $5,904,307            $3,693             $25         $12,707
 Massachusetts                        $4,248,019            $3,871             $24         $13,275
 Michigan                             $6,283,765            $3,310              $7         $15,050
 Minnesota                            $1,624,921            $3,895              $6         $11,537
 Mississippi                          $8,399,582            $4,244             $15         $14,946
 Missouri                             $4,459,523            $3,131             $19         $18,093
 Montana                                $284,705            $3,509             $11          $8,717
 Nebraska                             $1,254,267            $4,088             $16         $11,543
 Nevada                                 $815,408            $3,321             $20         $11,682
 New Hampshire                          $308,859            $2,690             $20         $12,291
 New Jersey                          $11,746,447            $3,987             $12         $16,315
 New Mexico                             $591,749            $4,496            $109         $15,326
 New York                            $33,906,662            $4,132              $1         $18,311
 North Carolina                      $14,536,707            $4,578              $8         $16,142
 North Dakota                           $460,898            $5,360             $20          $9,005
 Ohio                                $16,906,791            $3,754              $4         $16,771
 Oklahoma                             $5,180,740            $3,303             $14         $20,116
 Oregon                                 $835,120            $4,590             $17          $9,431
 Pennsylvania                        $16,509,851            $4,181              $7         $26,033
 Puerto Rico                              $2,548              $519            $132          $1,379
 Rhode Island                           $998,323            $4,061             $50         $10,271
 South Carolina                       $7,263,696            $4,628              $2         $15,538
 South Dakota                           $548,365            $4,847            $109         $10,255
 Tennessee                           $12,749,541            $4,494             $18         $19,021
 Texas                               $26,064,392            $3,830             $11         $17,018
 Utah                                   $196,636            $2,712            $146         $10,233
 Vermont                                $168,984            $3,928            $283          $8,298
 Virginia                             $6,923,740            $3,570             $16         $15,626
 Washington                           $2,987,803            $4,271             $15         $12,445
 West Virginia                        $1,619,915            $3,153             $15         $14,882
 Wisconsin                            $3,469,632            $4,017             $19         $13,890
 Wyoming                                 $67,505            $4,658          $1,095          $8,497
  National Total                    $333,895,544          $3,911               $1          $26,033
                                           Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 18 – Herb Kuhn

Table 11. Dialysis: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State

 State                           Total Payments          Median        Minimum         Maximum
 Alabama                              $4,111,514          $3,115               $9         $23,322
 Alaska                                  $82,124          $2,283               $5         $21,569
 Arizona                              $2,253,960          $1,844               $1         $26,054
 Arkansas                             $1,917,817          $2,746              $69         $25,134
 California                          $23,104,326          $2,991               $0         $32,190
 Colorado                             $2,240,159          $3,703              $18         $27,673
 Connecticut                          $5,051,398          $3,126               $1         $26,066
 Delaware                             $1,202,826          $3,813              $76         $23,949
 District of Columbia                 $1,362,202          $4,851              $10         $25,312
 Florida                             $12,741,999          $1,791               $1         $25,725
 Georgia                              $9,598,523          $4,500               $1         $23,075
 Hawaii                                 $879,542          $6,212              $81         $25,461
 Idaho                                  $839,790          $2,481              $73         $27,520
 Illinois                            $13,506,739          $2,496               $2         $26,330
 Indiana                              $7,193,238          $3,518               $9         $29,684
 Iowa                                 $3,403,061          $3,536              $17         $25,133
 Kansas                               $2,131,783          $3,441               $2         $28,540
 Kentucky                             $2,856,157          $2,438               $0         $28,150
 Louisiana                            $7,759,603          $5,225               $0         $24,956
 Maine                                  $638,533          $2,259              $75         $25,830
 Maryland                             $6,972,120          $2,285              $10         $25,254
 Massachusetts                        $5,614,691          $2,498               $0         $24,533
 Michigan                             $7,150,127          $2,306               $1         $27,072
 Minnesota                            $5,621,446          $3,114               $3         $71,819
 Mississippi                          $2,816,828          $4,317               $1         $22,833
 Missouri                             $5,285,097          $2,457               $1         $26,302
 Montana                                $366,222          $1,764              $34         $22,584
 Nebraska                             $1,621,885          $2,261              $66         $24,085
 Nevada                                 $321,404          $1,631              $78         $24,902
 New Hampshire                          $686,728          $2,431              $13         $23,856
 New Jersey                           $9,619,092          $2,051               $3         $27,478
 New Mexico                           $1,618,920          $4,348              $71         $25,233
 New York                            $24,960,984          $3,850               $1        $119,561
 North Carolina                       $8,780,749          $3,585               $2         $24,318
 North Dakota                           $904,195          $4,256              $70         $25,295
 Ohio                                $16,418,988          $2,684               $0         $28,792
 Oklahoma                             $3,349,452          $3,621              $69         $25,714
 Oregon                               $1,213,559          $1,772               $3         $25,204
 Pennsylvania                        $13,946,054          $2,710               $1         $25,454
 Puerto Rico                             $15,260            $604               $1          $2,053
 Rhode Island                         $1,128,637          $3,296               $4         $23,591
 South Carolina                       $3,560,091          $4,225               $6         $25,234
 South Dakota                           $997,219          $3,544              $69         $25,273
 Tennessee                            $6,053,203          $3,388               $9         $26,069
 Texas                               $17,236,207          $3,807               $1         $26,312
 Utah                                   $789,550          $1,634               $2         $28,981
 Vermont                                $422,036          $3,837              $77         $19,273
 Virgin Islands                           $3,241          $3,241           $3,241          $3,241
 Virginia                             $7,130,583          $2,727               $4         $27,671
 Washington                           $2,732,364          $2,466               $3         $24,069
 West Virginia                        $1,528,633          $2,354               $1         $25,539
 Wisconsin                            $5,567,868          $3,115               $9         $47,346
 Wyoming                                $206,830          $1,671              $53         $23,827
  National Total                    $267,515,557         $2,910               $0         $119,561
                                          Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 19 – Herb Kuhn

Table 12. Durable Medical Equipment (DME): Total Payments and Median, Minimum, and
Maximum Allowed Payment per Resident by State

 State                             Total Payments          Median        Minimum        Maximum
 Alabama                                $3,241,319            $188               $0        $101,589
 Alaska                                    $70,824            $260              $12         $11,576
 Arizona                                $1,651,713            $185               $0         $32,539
 Arkansas                               $2,760,844            $201               $0         $42,554
 California                            $23,440,732            $230               $0         $44,567
 Colorado                               $1,802,973            $230               $0         $20,911
 Connecticut                            $2,977,175            $207               $0         $27,943
 Delaware                                 $423,644            $188               $0         $16,969
 District of Columbia                     $372,916            $261               $0         $11,449
 Florida                               $12,766,283            $214               $0         $94,183
 Georgia                                $3,903,720            $182               $0         $35,815
 Hawaii                                   $188,174            $139               $1         $12,486
 Idaho                                    $638,537            $138               $0         $17,236
 Illinois                               $9,408,205            $200               $0         $37,984
 Indiana                                $6,518,023            $181               $0         $85,784
 Iowa                                   $2,877,255            $163               $0         $51,115
 Kansas                                 $2,322,844            $174               $0         $37,614
 Kentucky                               $3,178,494            $157               $0         $33,244
 Louisiana                              $6,061,930            $248               $0         $28,625
 Maine                                    $637,921            $138               $0          $9,544
 Maryland                               $2,631,071            $189               $0         $26,716
 Massachusetts                          $4,755,487            $224               $0         $19,613
 Michigan                               $6,384,977            $243               $0         $47,633
 Minnesota                              $2,791,318            $145               $0         $94,173
 Mississippi                            $2,514,494            $231               $0         $46,453
 Missouri                               $4,667,595            $213               $0        $120,501
 Montana                                  $710,425            $125               $0         $21,781
 Nebraska                               $1,577,091            $152               $0         $32,574
 Nevada                                   $668,718            $205               $0         $65,637
 New Hampshire                            $743,724            $203               $0         $11,177
 New Jersey                             $6,922,168            $266               $0         $22,413
 New Mexico                             $1,063,956            $242               $1         $16,834
 New York                              $14,585,356            $240               $0         $58,475
 North Carolina                         $6,116,289            $183               $0         $25,387
 North Dakota                             $453,632            $143               $0          $9,608
 Ohio                                  $12,288,510            $210               $0         $47,909
 Oklahoma                               $4,995,347            $269               $0         $27,955
 Oregon                                 $1,109,501            $179               $0         $16,945
 Pennsylvania                          $10,322,429            $198               $0         $81,709
 Puerto Rico                               $36,430            $221              $12          $6,687
 Rhode Island                             $847,012            $215               $0         $14,683
 South Carolina                         $2,524,440            $193               $0         $26,634
 South Dakota                             $451,927            $138               $0         $12,005
 Tennessee                              $4,814,894            $184               $0         $46,417
 Texas                                 $17,959,431            $225               $0         $90,610
 Utah                                     $889,810            $122               $0         $15,653
 Vermont                                  $265,536            $137               $0         $12,342
 Virgin Islands                             $9,794            $542              $82          $4,985
 Virginia                               $3,880,106            $206               $0         $19,200
 Washington                             $2,732,357            $157               $0        $122,009
 West Virginia                          $1,251,991            $230               $0         $19,626
 Wisconsin                              $3,595,259            $142               $0         $18,481
 Wyoming                                  $335,566            $128               $0         $18,705
  National Total                      $210,140,166           $205               $0         $122,009
                                            Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 20 – Herb Kuhn

Table 13. Standard Imaging: Total Payments and Median, Minimum, and Maximum
Allowed Payment per Resident by State

 State                        Total Payments           Median        Minimum         Maximum
 Alabama                            $3,374,007             $134              $6          $2,140
 Alaska                                $46,633              $61              $9            $960
 Arizona                            $1,592,605             $145              $4          $9,267
 Arkansas                           $1,963,056              $87              $7          $1,718
 California                        $12,336,465             $116              $1          $5,799
 Colorado                           $1,599,183             $100              $7          $3,245
 Connecticut                        $4,612,282             $191              $7          $3,382
 Delaware                             $874,974             $174              $7          $2,001
 District of Columbia                 $460,352             $140              $8          $3,868
 Florida                           $12,755,252             $131              $7          $5,012
 Georgia                            $3,910,394              $99              $7          $2,785
 Hawaii                               $144,122              $56              $9          $1,503
 Idaho                                $419,863              $82              $7          $1,678
 Illinois                           $9,037,209             $105              $7          $5,191
 Indiana                            $5,537,328             $100              $1          $5,209
 Iowa                               $2,661,054              $83              $7          $4,067
 Kansas                             $2,474,767              $94              $6          $2,386
 Kentucky                           $3,275,516              $99              $6          $2,799
 Louisiana                          $4,684,486             $146              $7          $3,745
 Maine                                $620,961              $84              $6          $1,767
 Maryland                           $3,829,170             $138              $7         $10,299
 Massachusetts                      $6,725,791             $151              $7         $14,833
 Michigan                           $8,156,749             $171              $7          $3,611
 Minnesota                          $3,598,176             $100              $1          $8,314
 Mississippi                        $1,549,683              $74              $7          $2,508
 Missouri                           $4,636,137             $109              $1          $2,449
 Montana                              $492,737              $78              $8          $2,794
 Nebraska                           $1,306,972              $76              $1          $2,888
 Nevada                               $736,436             $150              $7          $2,452
 New Hampshire                        $642,773              $94              $7          $1,542
 New Jersey                         $8,186,097             $155              $4          $3,808
 New Mexico                           $655,072              $97              $7          $2,861
 New York                          $18,747,957             $153              $5          $6,842
 North Carolina                     $3,946,275              $88              $6          $2,237
 North Dakota                         $460,973              $69              $6          $1,512
 Ohio                              $13,669,679             $134              $1          $3,036
 Oklahoma                           $3,464,897             $134              $4          $4,335
 Oregon                               $804,759              $99              $7          $3,157
 Pennsylvania                      $13,914,336             $148              $0          $4,301
 Puerto Rico                            $3,687              $24              $7            $823
 Rhode Island                         $774,084              $86              $8          $2,368
 South Carolina                     $1,768,404              $96              $6          $2,074
 South Dakota                         $541,608              $72              $6          $4,325
 Tennessee                          $4,067,278             $103              $6          $4,165
 Texas                             $16,073,096             $137              $1          $5,544
 Utah                                 $489,524              $97              $7          $1,539
 Vermont                              $147,165              $49              $8          $1,024
 Virgin Islands                         $1,198             $128             $11            $309
 Virginia                           $3,038,102              $92              $3          $3,684
 Washington                         $2,765,400             $144              $4          $2,503
 West Virginia                      $1,533,764             $112              $7          $3,799
 Wisconsin                          $4,436,021             $106              $7          $4,144
 Wyoming                              $199,880              $74              $7          $2,372
  National Total                  $203,744,389           $119               $0          $14,833
                                        Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 21– Herb Kuhn

Table 14. Hospital Visit: Total Payments and Median, Minimum, and Maximum Allowed
Payment per Resident by State

 State                          Total Payments            Median        Minimum        Maximum
 Alabama                              $2,640,003             $143             $11          $23,688
 Alaska                                  $57,144             $179             $36           $3,273
 Arizona                              $1,344,385             $150             $27          $10,209
 Arkansas                             $3,421,399             $198              $7          $11,086
 California                          $20,921,446             $207              $2          $45,486
 Colorado                             $1,242,998             $148             $30          $17,191
 Connecticut                          $2,125,289             $162              $3          $10,300
 Delaware                               $557,664             $177             $31           $9,102
 District of Columbia                   $557,404             $245             $23           $8,862
 Florida                             $13,809,683             $179             $13          $21,509
 Georgia                              $4,655,649             $175              $1          $11,640
 Hawaii                                 $200,064             $155             $33           $6,009
 Idaho                                  $374,016             $140             $26           $5,896
 Illinois                            $13,911,988             $175              $2          $33,098
 Indiana                              $4,967,884             $144             $11           $9,106
 Iowa                                 $2,743,467             $142              $5           $8,260
 Kansas                               $2,635,856             $164             $19          $10,152
 Kentucky                             $3,438,850             $163             $26          $14,724
 Louisiana                            $5,683,839             $205             $15          $14,114
 Maine                                  $529,576             $147              $1           $2,410
 Maryland                             $4,283,904             $197             $15          $34,613
 Massachusetts                        $4,863,165             $172              $8           $9,763
 Michigan                             $4,933,971             $163              $3          $15,452
 Minnesota                            $2,469,156             $147             $14           $7,055
 Mississippi                          $2,337,473             $161              $4           $5,916
 Missouri                             $5,068,547             $153              $5          $20,138
 Montana                                $460,967             $140             $11           $3,481
 Nebraska                             $1,582,515             $148             $14           $9,041
 Nevada                                 $459,283             $154             $28          $15,365
 New Hampshire                          $499,017             $150              $3           $5,882
 New Jersey                          $11,601,770             $227             $16          $31,628
 New Mexico                             $594,810             $164             $11           $5,140
 New York                            $14,047,267             $172              $6          $30,538
 North Carolina                       $4,230,750             $155              $1          $13,765
 North Dakota                           $542,822             $140             $26           $4,697
 Ohio                                 $9,129,881             $158              $6          $17,808
 Oklahoma                             $3,563,789             $178             $15           $6,278
 Oregon                                 $623,076             $142             $12           $4,469
 Pennsylvania                         $9,900,786             $169              $2          $15,477
 Puerto Rico                             $19,128             $115             $27           $1,591
 Rhode Island                           $726,606             $155             $14          $10,577
 South Carolina                       $2,093,072             $164              $4          $10,104
 South Dakota                           $483,835             $137              $8           $6,824
 Tennessee                            $5,266,894             $186              $2          $13,901
 Texas                               $17,383,964             $205              $7          $22,683
 Utah                                   $359,488             $145             $27           $4,071
 Vermont                                $198,735             $146             $32           $1,795
 Virgin Islands                           $2,315             $213            $141           $1,235
 Virginia                             $3,092,749             $163              $3          $20,282
 Washington                           $1,559,819             $147             $15           $8,982
 West Virginia                        $1,265,440             $158             $26          $11,156
 Wisconsin                            $2,678,898             $146              $5          $15,311
 Wyoming                                $175,973             $143             $25           $2,558
  National Total                    $202,318,468            $167               $1          $45,486
                                           Source: OIG analysis of 2002 Medicare claims data, 2006.
Page 22 – Herb Kuhn

Appendix D

Below is a map of the United States showing the median payments per resident for Part B
services in each State.
